an

—. COE

* E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B nets contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

SCOTT A. SELDIN,
Petitioner,
v.
THEODORE M. SELDIN, STANLEY C. SILVERMAN,
MARK SCHLOSSBERG,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 3829 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of January, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ei 5
State of Nebraska . LK Qudvaw- "
My Commission Expires Nov 24, 2020 ¢

Notary Public Affiant 39375

 
